No. 20-5379

 

 

IN THE

Supreme Court of the United States

KEITH A. DAVIS,
Petitioner,

Vv.

STATE OF WASHINGTON,
Respondent.

On Petition for a Writ of Certiorari
to the Supreme Court of Washington

BRIEF OF AMICUS CURIAE THE NATIONAL
ASSOCIATION OF CRIMINAL DEFENSE
LAWYERS IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,986 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 30, 2020.

 

Colin Casey(Hogan
Wilson-Epes Printing Co., Inc.
